CERTIFICATE OF WORD COUNT
NO. TBD
Bruce H. Zitka and Susan k. Hernandez-Zitka,
Petitioners,
v.
State of Michigan,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BRUCE H. ZITKA AND
SUSAN K. HERNANDEZ-ZITKA PETITION FOR WRIT OF CERTIORARI contains 5055 words, including the
parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 30, 2021

SCP Tracking: Ambrose-16818 Farmington Road-Cover White

